WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

20-5430

Anthony G. Meyers

Cathy Jess, Warden
(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

0 I am a member of the Bar of the Supreme Court of the United States.
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date-

GA/
S et-1 _9

August 31, 2020

(Type or print) Name
Firm

0 Mr. 0 Ms. 0 Mrs. 0 Miss

Wisconsin Department of Justice

Address

17 West Main Street, P. 0. Box 7857

City & State
Phone

Sara Lynn Shaeffer

Madison, Wisconsin

608-266-9594

Zip
Email

53707-7857

shaeffersl@doj.state.wi.us

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Anthony G. Meyers #520337, Oshkosh Correctional Institution

RECEIVED
SEP 1 0 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

